Audit Report 97-32A
ASSET FORFEITURE PROGRAM
ANNUAL FINANCIAL STATEMENT
FISCAL YEAR 1996
Audit Report 97-32A, (9/97)
TABLE OF CONTENTS
OFFICE OF THE INSPECTOR GENERAL COMMENTARY AND SUMMARY
ASSET FORFEITURE PROGRAM MANAGEMENT'S OVERVIEW
INDEPENDENT AUDITOR'S REPORTS
INDEPENDENT AUDITOR'S REPORT ON THE
FINANCIAL STATEMENTS
AUDITOR'S REPORT ON INTERNAL CONTROL
AUDITOR'S REPORT ON COMPLIANCE
ASSET FORFEITURE PROGRAM ANNUAL FINANCIAL STATEMENT
STATEMENT OF FINANCIAL POSITION
STATEMENT OF OPERATIONS AND CHANGES IN NET POSITION
COMBINING STATEMENT OF FINANCIAL POSITION
NOTES TO PRINCIPAL FINANCIAL STATEMENTS
(Notes 1 - 3)
(Notes 4 - 6)
(Notes 7 - 16)
ASSET FORFEITURE PROGRAM SUPPLEMENTAL FINANCIAL AND
MANAGEMENT INFORMATION
EXHIBIT A--ASSETS FORFEITURE FUND
YEAR TO DATE REVENUE, OBLIGATIONS, AND TRANSFERS
EXHIBIT B--ASSETS FORFEITURE FUND
MONTHLY REVENUE, OBLIGATIONS, AND TRANSFERS
EXHIBIT C--SEIZED ASSET DEPOSIT FUND
COMPOSITE OF SADF BALANCE
EXHIBIT D--SEIZED ASSET DEPOSIT FUND
AVERAGE CASH BALANCE
EXHIBIT E--ASSET FORFEITURE PROGRAM
PERFORMANCE MEASURES
TABLE A--ASSETS FORFEITURE FUND
NET DEPOSITS BY DISTRICT
TABLE B--ASSETS FORFEITURE FUND
SOURCE OF INCOME/REFUNDS FISCAL YEAR 1996 BY DISTRICT
TABLE C--ASSETS FORFEITURE FUND
EQUITABLE SHARING DISBURSEMENTS BY DISTRICT
TABLE D--SEIZED ASSET DEPOSIT FUND BALANCES
FISCAL YEAR 1996 BY DISTRICT
APPENDIX - AUDIT DIVISION ANALYSIS AND SUMMARY OF
ACTIONS NECESSARY TO CLOSE THE REPORT
OFFICE OF THE INSPECTOR GENERAL
COMMENTARY AND SUMMARY
The Department of Justice Asset Forfeiture Program is a nationwide law enforcement
program. Federal employees, contract personnel, and state and local law enforcement
officials work cooperatively in the investigation and prosecution of cases involving asset
seizure and forfeiture. There are six Department of Justice components that execute the
Asset Forfeiture Program: the Drug Enforcement Administration, the Federal Bureau of
Investigation, the Immigration and Naturalization Service, the U.S. Marshals Service
(USMS), the U.S. Attorneys, and the Criminal Division. The U.S. Postal Inspection Service,
the U.S. Park Police, and the Food and Drug Administration are the non-Department of
Justice federal participants in the program.
From FY 1989 through FY 1994, the Executive Office for Asset Forfeiture had
responsibility for policy formulation and implementation, program oversight, management
and fiscal control, and strategic planning for all aspects of the Asset Forfeiture
Program. In December 1994, the Executive Office for Asset Forfeiture was reorganized with
administrative and financial management functions assigned to the Asset Forfeiture
Management Staff of the Justice Management Division and the legal, policy, and oversight
responsibilities shifted to the Asset Forfeiture and Money Laundering Section, Criminal
Division.
The Office of the Inspector General (OIG) contracted with Brown & Company,
Certified Public Accountants, to perform the audits of the FYs 1996 and 1995 financial
statements. The FY 1996 audit is the sixth annual financial statement audit of the Asset
Forfeiture Program performed under the auspices of the Chief Financial Officers (CFO) Act
of 1990. The OIG performs an oversight role in this audit process. The oversight role
includes ensuring compliance with the CFO Act, monitoring the progress of the audit,
reviewing supporting workpapers, coordinating the issuance of reports, following up on
findings and management letter issues, and performing other functions deemed necessary.
The audit was conducted in accordance with generally accepted government auditing
standards. The financial statements were prepared in accordance with Office of Management
and Budget Bulletin 94-01, "Form and Content of Agency Financial Statements,"
and the Asset Forfeiture Program accounting policies which are summarized in Note 1 to the
principal financial statements.
This audit report contains the annual financial statement of the Asset Forfeiture
Program for the year ended September 30, 1996. The report includes management's overview
and supplemental financial and management information sections, and the independent
auditor's reports on the principal financial statements, internal control structure, and
compliance with laws and regulations.
Overview and Supplemental Financial and Management Information Sections
The Justice Management Division prepared the overview which presents a narrative
discussion of the objectives, goals, highlights, and program and financial performance
analysis of the Asset Forfeiture Program for FY 1996. Important aspects of the Asset
Forfeiture Program's operations are discussed and relevant trends are noted. The
supplemental financial and management information section presents the Asset Forfeiture
Program's financial and program results.
The overview was reviewed by Brown & Company for completeness and consistency.
Brown & Company also obtained an understanding of and assessed control risk
surrounding internal control policies and procedures which were designed by management to
ensure that data supporting reported performance measures are properly accounted for and
recorded. However, they did not audit the information presented in the overview or the
corresponding performance measurement sections, as their objective was not to provide an
opinion on it.
Independent Auditor's Reports
The audit resulted in an unqualified opinion on the principal financial statements. The
auditors did note an internal control issue which is briefly discussed below.
The Report on the Internal Control Structure identified one reportable condition. A
reportable condition is a matter coming to the attention of the independent auditors
relating to significant deficiencies in the design or operation of the internal control
structure that could adversely affect management's ability to record, process, summarize,
and report financial data consistent with the assertions of management in the financial
statements. The condition identified (repeated from the FY 1995 audit report, OIG Report
#96-21A) involved the improper classification of unliquidated obligations. The finding and
recommendation for improvement are detailed in the Auditor's Report on Internal Control.
Other weaknesses noted in the internal control structure and its operations, but not
considered to be reportable conditions, will be communicated under separate letter to
management. The auditors did not identify any conditions in the internal control structure
and its operations that they consider to be material weaknesses, either individually or
cumulatively.
The Report on Compliance with Laws and Regulations contains no compliance findings
related to applicable laws and regulations. The auditors procedures included a review of
management's process for evaluating and reporting on internal controls and accounting
systems as required by the Federal Managers' Financial Integrity Act (FMFIA). Brown &
Company compared its evaluation of the Asset Forfeiture Program internal control structure
with the Department of Justice's most recent FMFIA reports. The auditor's objective was
not to provide an opinion on overall compliance with laws and regulations and,
accordingly, did not express such an opinion.
Financial and Other Information
In its Management Overview, program management notes that asset forfeiture continues to
be an extremely effective and powerful tool in the Department's fight against organized
crime, drug trafficking, and money laundering. The ability of the Government to remove the
proceeds of crime from individuals and destroy the economic infrastructure of criminal
organizations is a law enforcement tool.
Management reported that adverse court decisions, especially as to the issue of double
jeopardy, may be one of the reasons for the decline in forfeiture program activity. Agents
and prosecutors often decided to forego administrative or civil forfeiture actions in
order to avoid the risk of having a criminal prosecution barred on double jeopardy
grounds. The circuits' adverse rulings on the double jeopardy issue were reversed by the
Supreme Court in June 1996, when it decided United States v. Ursery, and United
States v. $405,089.23, and held that civil forfeitures under 21 U.S.C. sec. 881(a)(6)
and (7) and 18 U.S.C. sec. 981(a)(1)(A), like civil forfeitures generally, do not
constitute punishment for purposes of the Double Jeopardy Clause.
Total revenue for FY 1996 was $348.2 million, a decrease of about 30.4 percent from $500.1
million in FY 1995. These revenues provided funding for law enforcement needs.
Approximately 51 percent of total FY 1996 revenue ($176.7 million) was distributed to fund
equitable sharing payments, joint law enforcement operations, awards for information, and
the purchase of evidence. About 29 percent of the total revenue in FY 1996 was used to
fund forfeiture program expenses.
Total expenses and distributions for FY 1996 were $292.8 million, a decrease of about
36 percent from $459.7 million in FY 1995. Forfeiture program expenses as a percentage of
total expenses and distributions remained relatively constant in FYs 1996 and 1995.
Criminals continue to pay more attention to the risk of forfeiture and are becoming more
sophisticated at hiding their assets, both here and abroad. The Department continues to
place priority emphasis on international cooperation in forfeiture cases to find and seize
foreign assets. Management reported that since this cooperation commenced, $130.9 million
has been repatriated to the United States and forfeited. Of this amount, almost $9 million
was distributed to foreign governments during FY 1996.
Status of Prior Year's Finding
Audit issues identified by the independent auditors in the FY 1995 Annual Financial
Statement Report (OIG Report #96-21A) have been resolved. Program management committed to
implementing the necessary corrective actions, and the OIG continues monitoring its
progress. The FY 1996 independent auditor's report on the internal control structure
identified a repeat condition. The independent auditors reported that although the dollar
amount of the improper classification of unliquidated obligations increased from the
previous audit that substantial progress had been made towards the correction of the
deficiency. This improvement was evidenced by the problem being noted in only two of the
94 USMS district offices versus 11 during the FY 1995 audit. In addition, the auditors
reported that USMS closing procedures have been enhanced to ensure that significant
year-end adjustments by the Asset Forfeiture Management Staff will not be necessary in the
future for the preparation of accurate financial statements.
MANAGEMENT'S OVERVIEW
U.S. Department of Justice
Asset Forfeiture Management Staff
Washington, D.C. 20530
Asset Forfeiture Program
Management's Overview
Introduction
Asset forfeiture continues to be an extremely effective and powerful tool in the
Department's fight against organized crime, drug trafficking, and money laundering. While
forfeiture is as old as our nation, its utility was enhanced with the passage of the
Comprehensive Crime Control Act of 1984. The ability of the Government to remove the
proceeds of crime from individuals and destroy the economic infrastructure of criminal
organizations is an essential law enforcement tool. The Department of Justice Asset
Forfeiture Program is a nationwide law enforcement program that involves Federal employees
and contract personnel. Thousands of investigators, litigators, property managers, and
support staff are involved in the seizure and forfeiture process as part of their work. In
addition, thousands of state and local law enforcement officials work cooperatively with
their Federal counterparts in the investigation and prosecution of criminal cases,
including the effort to strip criminals of their ill-gotten gains.
The Department's program is aimed at attacking and dismantling criminal organizations
at all levels. Wealth is power, and illicit organizations, large and small, are fueled by
their tainted money and property. By seizing the assets of illicit organizations, the
Government can sharply curtail or eliminate their operations. Since large, established
criminal enterprises replace individuals easily, asset forfeiture may represent the most
significant tool available for disruption of these enterprises. Forfeiture procedures
occur through civil and criminal judicial cases, and through administrative means.
Administrative and financial management functions for the program are assigned to the
Asset Forfeiture Management Staff, Justice Management Division. Legal, policy, and program
oversight responsibilities are assigned to the Asset Forfeiture and Money Laundering
Section, Criminal Division.
There are six Department of Justice components that execute the Asset Forfeiture
Program: the Drug Enforcement Administration, the Federal Bureau of Investigation, the
Immigration and Naturalization Service, the U.S. Marshals Service, the U.S. Attorneys, and
the Asset Forfeiture and Money Laundering Section of the Criminal Division. The U.S.
Postal Inspection Service, the U.S. Park Police, and the Food and Drug Administration are
the non-Department of Justice participants in the program. In FY 1994, the Internal
Revenue Service, the Bureau of Alcohol, Tobacco and Firearms, and the U.S. Secret Service,
split away from the Justice Asset Forfeiture Program to participate in the Treasury
Forfeiture Fund established by Public Law 102-393. Close coordination between the two
forfeiture programs remains an important priority.
The objectives of the program, as set forth in The Attorney General's Guidelines for
Seized and Forfeited Property, July 1990, are:
Law enforcement: to punish and deter criminal activity.
Cooperation: to enhance law enforcement cooperation at all levels of government, both
domestically and internationally.
Revenue: as a by-product of the first two objectives, to produce funds to be reinvested
into Federal, state, local, and international law enforcement.
In FY 1996, the Attorney General initiated a program to reinvigorate use of asset
forfeiture. The program was instituted to counter recent declines in the use of the asset
forfeiture sanction. This decline resulted in criminal enterprises retaining and
reinvesting tens of millions of dollars in their operations.
The funds of the Asset Forfeiture Program are under the management control of the Asset
Forfeiture Management Staff, Justice Management Division, and are administered by the U.S.
Marshals Service. The Seized Asset Deposit Fund (SADF) is a deposit fund and is listed in
the U.S. Treasury Federal Account Symbols and Titles as 15X6874. The Assets Forfeiture
Fund (AFF) is a special fund and is listed as 15X5042. The SADF was established for the
temporary storage of non-evidentiary cash subject to forfeiture. This deposit fund
includes seized cash, proceeds from pre-forfeiture sales of seized property, and income
from property under seizure. The funds are held in the deposit account until the U.S.
Marshals Service receives a declaration of forfeiture order, or court order, with an
authorizing instruction requiring a refund of the seized cash to the owner or forfeiture
to the U.S. Government. Once forfeited, the funds are transferred to the AFF unless there
are specific reasons the funds should be kept on deposit in the SADF.
Forfeiture Law
The laws affecting the program continue to evolve. The Racketeer Influenced and Corrupt
Organizations Act of 1970 and the Comprehensive Drug Abuse Prevention and Control Act of
1970 were the first Federal laws to authorize criminal forfeitures for racketeering and
continuing criminal enterprise or "drug kingpin" offenses, respectively. These
provisions complemented existing civil forfeiture authority, which, in turn, was greatly
enhanced in 1978 and 1984.
The Comprehensive Crime Control Act of 1984 established the Department of Justice AFF
to hold proceeds of Department of Justice program forfeitures and to fund certain
forfeiture-related expenses and law enforcement activities. The creation of the AFF
removed the budgetary deterrent to the aggressive use of forfeiture as a weapon in the war
against crime. The Comprehensive Crime Control Act of 1984 also authorized the Attorney
General to equitably share forfeited property with state and local law enforcement
agencies.
The Anti-Drug Abuse Act of 1986 authorized the use of forfeiture in money laundering
cases (see 18 U.S.C. § 981 and 982) and authorized sharing of forfeited property with
cooperating foreign governments pursuant to a formal treaty. The Anti-Drug Abuse Act of
1988 expanded money laundering forfeiture and eased the way for international sharing by
authorizing transfers pursuant to international agreements rather than treaties (see 21
U.S.C. § 881(e)(l)(E)). In addition, this 1988 Act created the "Special Forfeiture
Fund," administered by the Director of the Office of National Drug Control Policy
(ONDCP) (see 21 U.S.C. § 1509). The Violent Crime Control and Law Enforcement Act of
1994, October 1994, reauthorized ONDCP and provided that up to $100 million annually of
excess unobligated balances from the AFF and the Treasury Forfeiture Fund could be
transferred to the Special Forfeiture Fund.
The Financial Institution Reform, Recovery and Enforcement Act of 1989 amended 18
U.S.C. § 981 and 982 to authorize civil and criminal forfeiture for bank-related crime to
help recover monies looted from savings and loan institutions. Subsequent legislation in
1990, 1992, 1994, and 1996, added new criminal and civil forfeiture provisions for
car-jacking, counterfeiting, and other offenses enforced by the Treasury Department, food
stamp and health care fraud, and immigration offenses. At the same time, the forfeiture
laws have generated a great deal of litigation in the federal courts and a corresponding
explosion in the case law interpreting the forfeiture statutes and procedures. Since 1992,
the Supreme Court has rendered decisions in 10 forfeiture cases.
The Dire Emergency Supplemental Appropriations Act of 1991, Public Law 102-27, dated
April 10, 1991, added subsection (E) to 28 U.S.C. § 524(c)(9) to provide authority for
the Attorney General to use any excess monies in the AFF for law enforcement, prosecution,
and correctional activities. The provision has been amended numerous times since; most
recently by Public Law 104-208, dated September 30, 1996. For any surplus balances at the
end of FY 1996, the provision reads as follows:
"(E) Subject to the notification procedures contained in section 605 of Public Law
103-121, and after satisfying the transfer requirement in subparagraph (B) above, any
excess unobligated balance remaining in the Fund on September 30, 1996, shall be available
to the Attorney General, without fiscal year limitation,1 for
any Federal law enforcement, litigative/prosecutive, and correctional activities, or any
other authorized purpose of the Department of Justice. Any amounts provided pursuant to
this section may be used under authorities available to the organization receiving the
funds."2
In October 1991, the AFF statutory authority was amended by the Department of Justice
and Related Agencies Appropriations Act, 1992, Public Law 102-140, 105 Stat. 782. These
amendments made the benefits from the AFF equally available to all program components.
This law also provided explicit authority to invest the holdings of the SADF, providing an
important new source of revenue for the Asset Forfeiture Program.
In October 1992, the AFF statutory authority was further amended by the Treasury,
Postal Service, and General Government Appropriations Act, 1993, Public Law 102-393, and
by the Department of Justice Appropriations Act, 1993, Public Law 102-395, which provided
authority to fund certain program expenses from the permanent, indefinite portion of the
AFF, which were formerly funded from the portion of the AFF which is subject to annual,
definite appropriation. In addition, authority to fund certain other law enforcement
expenses was added to the AFF statutory authority, including but not limited to, the
equipping of conveyances to be used by state and local governments participating in joint
enforcement efforts with the Federal Government.
International Forfeiture
The Department continues to place priority emphasis on international cooperation in
forfeiture cases. Increased attention continues to be placed on cooperation with foreign
authorities to find and seize foreign assets of drug traffickers, money launderers and
other criminals. Reflecting the increased level of international assistance obtained in
connection with our domestic forfeiture cases, the United States shared substantial
amounts of forfeited proceeds with cooperating foreign jurisdictions during FY 1996. Since
the international cooperation commenced, a total of $130.9 million has been repatriated to
the United States and forfeited, and a total of over $45 million shared with cooperating
foreign countries. Of the repatriated amounts, almost $9 million was distributed to
foreign governments during FY 1996. The Vienna Convention of 1988, which has been ratified
by over 110 countries including the United States, provides for judicial assistance in
drug related cases. Article V of the Convention is devoted expressly to forfeiture
cooperation requiring each member jurisdiction to assist other members in identifying,
immobilizing, and forfeiting assets found within the territory of the requesting
jurisdiction. Increased use of the criminal forfeiture process is an important aspect of
this initiative to reach criminal wealth located overseas.
Asset Seizure and Forfeiture
The Department recognizes the responsibility to operate the program in a manner that
maximizes the law enforcement effect. The Department simultaneously recognizes the need to
protect the legitimate interests of innocent parties. Further, due to the economic value
of assets seized for forfeiture, and the risks attendant to the seizure and forfeiture
process, the Department recognizes the need for strong management controls and the
responsibility to manage and dispose of assets in a business-like manner to preserve
economic value.
The revenue potential of asset forfeiture and the success in cultivating that potential
have made asset forfeiture a high profile program with the Office of Management and Budget
(OMB), ONDCP, the Congress, other Federal agencies, and with state and local law
enforcement agencies nationwide. The need for improved management and coordination of this
widespread, fast-growing program led the Attorney General to report the program as a
"material weakness" in FY 1989 through FY 1995 Annual Reports to the President
and the Congress pursuant to the Federal Managers' Financial Integrity Act. OMB designated
the Federal forfeiture program as one of its 100 "high risk" programs requiring
close OMB oversight. In January 1990, the General Accounting Office (GAO) designated the
"Management of Seized and Forfeited Assets," including both the Department of
Justice and U.S. Customs Service operations, as one of the fourteen program areas in the
Executive Branch that warranted special GAO audit or review. In February 1995, the GAO
renewed its 1990 designation of the "Management of Seized and Forfeited Assets,"
of both Departments as one of the program areas in the Executive Branch that warranted
special GAO audit or review. Moreover, reports of the GAO, the House Appropriations
Committee, the House Judiciary Committee, the Senate Governmental Affairs Committee, and
the Department's Office of the Inspector General have pointed out the need for stronger
central management and direction of this program.
Accordingly, the Department worked vigorously with the participating agencies to
reinforce the integrity and accountability of the Asset Forfeiture Program. Important
management improvements have been made in the past five years. Development and
implementation of the Consolidated Asset Tracking System (CATS), a single, integrated
information system for the Asset Forfeiture Program, brings the power of technology to the
working level throughout the forfeiture community nationwide. It represents an important
link to tie the Asset Forfeiture Program together, and to provide the information
necessary to support proactive management of program activities. At the end of FY 1996,
CATS had been fully deployed to 32 judicial districts around the country.3 The Department intends to provide CATS access nationwide by the
conclusion of FY 1997.
In response to the continuing demand by the asset forfeiture community for enhanced
Federal leadership for, among other aspects of the program, stronger protection of
innocent parties, and for a broad range of policy, practice, and management guidance, the
Department produced numerous policy documents and other publications, as well as
audio-visual tools, to be used to educate and/or assist individuals involved in the Asset
Forfeiture Program.
With regard to accountability of the Asset Forfeiture Program, the Department's Office
of Inspector General issued the following audit reports during FY 1996:
(1) Use of Equitable Sharing Revenues, Maryland State Police, Pikesville, Maryland.
(2) Asset Forfeiture Program Annual Financial Statement for Fiscal Year 1995.
(3) Use of Equitable Sharing Cash and Property by the Kansas City, Missouri, Police
Department.
(4) Use of Equitable Sharing Revenues by the Police Chief of the City of Gregory,
Texas.
(5) Use of Equitable Sharing Revenues, Baltimore City Police, Baltimore, Maryland.
Program Performance Information
During FY 1996, a total of $338.1 million in cash and proceeds was deposited into the
AFF. This figure includes investment earnings from both the AFF and SADF, and includes
returns of Bank of Credit and Commerce International (BCCI) prior year principal deposits
($28.2 million) and prior year interest earnings ($28.7 million). From current balances,
$150.0 million was shared with foreign governments and state and local law enforcement
agencies that participated in joint investigations with Federal agencies that led to asset
seizures and forfeitures. Several state or local agencies received transfers exceeding $1
million in individual cases. An additional $2.1 million worth of real and personal
property was transferred to state and local agencies for use in future law enforcement
efforts. After payment of statutorily authorized expenses, in FY 1996, the AFF accumulated
a surplus of about $183.9 million. Of this amount, $138.1 million is available to pay
initial program costs for FY 1997. In FY 1996, the program invested cash balances from
both the AFF and SADF in Government securities. These investments resulted in earnings of
$42.7 million during FY 19964.
The largest criminal forfeiture to date was achieved in January 1992, when a
preliminary forfeiture order for $347 million was issued for all of the domestic assets of
BCCI and three related corporations. Subsequently, the court amended the forfeiture order
several times to add additional assets, bringing the total amount forfeited to more than
$1 billion. A substantial portion of these funds remain in the SADF pending the resolution
of third party claims. The balance has been distributed pursuant to the original plea
agreement.
During FY 1996, the Department of Justice continued to promote international forfeiture
cooperation and asset sharing with its international law enforcement partners. The success
of this initiative was manifested through the negotiation of bilateral agreements
providing for forfeiture cooperation and asset sharing (see International Forfeiture
Section of this Management's Overview).
The Department continued its domestic training programs for persons involved in
forfeiture cases. Approximately 600 Federal prosecutors received basic or advanced
training in conducting forfeiture cases, or received other specialized forfeiture oriented
training. Other Departmental components and participating agencies from the Departments of
Health and Human Services and Interior continued active asset forfeiture training
programs.
The Attorney General announced a new program during 1992 which continued in 1996 to
help combat the problem of inner city violence and drug abuse. The Attorney General
authorized state and local law enforcement agencies to receive and then retransfer
Federally forfeited real properties to state and local governmental units or private
non-profit organizations as part of the Weed and Seed Program. Such properties may be used
for drug abuse treatment, prevention, education, and job training, or any other project
designed to foster the goal of the Weed and Seed Program to rejuvenate communities plagued
by violent crime and drug trafficking activities. By the close of FY 1996, a total of 45
real properties had been transferred to state and local communities pursuant to the Weed
and Seed Program, 7 of those during FY 1996. In addition, $9 million was afforded the Weed
and Seed Program pursuant to the Fund's authority (28 U.S.C. § 524(c)(1)(I)). Resources
were provided to more than 70 cities nationwide for this high priority program. The AFF
provided 24 percent of the cash funding for the Department's Weed and Seed Program in FY
1996.
Limitations on the Use of the Assets Forfeiture Fund
The AFF is defined by statute. Authorities and limitations governing use of the AFF are
specified in 28 U.S.C. § 524(c).
In addition, use of the AFF is controlled by laws and regulations governing the use of
public monies and appropriations (e.g., 31 U.S.C. § 1341-1353, 1501-1558, OMB Circulars,
and provisions of annual appropriations acts.) It is further controlled by the Attorney
General's Guidelines on Seized and Forfeited Property (July 1990), policy memoranda,
and statutory interpretations issued by appropriate authorities. Restrictions on the use
of AFF monies retain those limitations after the monies are made available to a recipient
agency unless otherwise provided by law. Monies are available for use only to the extent
receipts are available in the AFF.
In FY 1996, these monies were available under a permanent indefinite appropriation to
finance the following:
(1) The operational costs of the forfeiture program, including handling and disposal of
seized and forfeited assets, and the execution of legal forfeiture proceedings to perfect
the title of the United States in that property.
(2) The satisfaction of innocent third party claims.
(3) The payment of equitable shares to participating foreign governments and state and
local law enforcement agencies.
(4) The costs of ADP equipment and ADP support for the program.
(5) Contract services in support of the program.
(6) Training and printing associated with the program.
(7) Other management expenses of the program subject to approval by the Asset
Forfeiture Management Staff.
The monies deposited in the AFF are not available for general use by a recipient agency
for investigative, prosecutive or other purposes, even if that activity may result in the
seizure of assets for forfeiture. Resources of the AFF are intended to cover the business
expenses of the Asset Forfeiture Program, with any excess balances available for other
more discretionary purposes, including investigative expenses covered by the appropriated,
definite portion of the Fund. Excess unobligated balances identified at the end of a FY
may be declared a "Super Surplus" balance. Super Surplus balances may be
allocated at the discretion of the Attorney General to "... any Federal law
enforcement, litigative/prosecutive, and correctional activities ... of the Department of
Justice."
Financial Performance Information
The revenue for the AFF was $338.1 million for FY 1996 (see table below). This does not
include $10.1 million of revenue associated with forfeited property that was transferred
in kind. The Federal Accounting Standards Advisory Board's Statement of Federal Financial
Accounting Standards Number 3, Accounting for Inventory and Related Property,
requires that revenue associated with property not disposed of through sale be recognized
upon approval of distribution.
Composition of FY 1996 Revenue
CATEGORY
AMOUNT
(Millions)
PERCENTAGE
FORFEITED CASH NET OF REFUNDS
$185.7
54.9%
SALES OF FORFEITED PROPERTY
$73.5
21.7%
INTEREST INCOME ON IDLE AFF/SADF BALANCE
$14.0
4.1%
REFUND OF PRIOR YEAR BCCI INTEREST AND PRINCIPAL
$28.7
8.5%
PAYMENTS/PENALTIES IN LIEU OF FORFEITURE
$17.8
5.3%
OTHER MISCELLANEOUS INCOME
$18.4
5.4%
TOTAL
$338.1
100.0%
In the Supplemental Financial and Management Information Section, Exhibit A tracks the
monthly accumulation of income (revenue) and related obligations as well as the resulting
Unobligated Balance on a year-to-date basis, while Exhibit B shows the monthly flow of
income (revenue), obligations and transfers.
Due to continual investment of idle cash in Government securities, the AFF and SADF
Fund balances with the U.S. Treasury remain low. Exhibit C shows the composition of the
SADF by month and the impact of the BCCI seizures. Exhibit D depicts the average cash and
investments balance of the SADF for FY 1996. Investment earnings were down 22 percent
(from $54.8 million ) totaling over $42.0 million for FY 1996. The investment of seized
cash from BCCI accounted for $15.5 million or 36.3 percent of these earnings.
Net Position, which is the equity of the U.S. Government in the Asset Forfeiture
Program, has increased 36.7 percent since FY 1995. The ratio of Net Position to Total
Assets, excluding the value of BCCI cash on deposit in the SADF, was 0.2 to 1 in FY 1996,
an increase of 0.1 since FY 1995.
Current Assets exceed short term liabilities by a ratio of 2.4 to 1. This relationship
has increased 0.9 since FY 1995, and increased 0.8 since FY 1994, and continues to
indicate that the AFF will be able to meet its obligations when due.
Other performance measures of the Asset Forfeiture Program may be found in Exhibit E.
Other Distributions of Revenues
Special Forfeiture Fund
For 1996, the Department of Justice could transfer one-half of any excess end-of-year
unobligated balances in the AFF, up to $100 million, to the Special Forfeiture Fund (see
28 U.S.C. §524(c)(8)). This Special Fund is distinct from the AFF. These surplus monies
are deposited in a non-operating account under the Director of the ONDCP, and are
available, to the extent specified in appropriations acts, for drug prevention, treatment,
education and law enforcement programs. Through the close of FY 1995, the Department of
Justice had transferred $367 million to the Special Forfeiture Fund ($131.5 million, $150
million, $28.5 million, $30 million, and $27 million from FY 1990, FY 1991, FY 1992, FY
1993, and FY 1996 surpluses, respectively). No excess unobligated balance was declared for
transfer to the Special Forfeiture Fund at the end of 1994 or 1995.
Equitable Sharing
During FY 1996, $150.0 million in forfeited cash was shared with foreign governments
and state and local law enforcement agencies. Since the inception of equitable sharing in
FY 1986, over $1.8 billion in cash and property has been shared. The equitable sharing
program continues to serve its primary purposes. First, it removes impediments to state
and local law enforcement efforts to strip criminals of their criminal profits and tools
by recompensing investigative and seizure efforts. Second, it encourages enhanced
cooperation among Federal, state and local law enforcement efforts. And third, it
supplements the resources of state and local law enforcement agencies without further
taxing the public wealth.
U.S. Marshals Service Seized and Forfeited Property
The U.S. Marshals Service is responsible for holding and maintaining real and tangible
personal property, seized by participating agencies, for disposition. Seized property can
be either returned to the owner or forfeited to the U.S. Government and subsequently sold,
placed into official use, destroyed or transferred to another agency. Seized and forfeited
property is not to be considered inventory held for resale in the normal course of
business.
The estimated value of non-monetary seized assets (property), net of estimated liens,
held by the U.S. Marshals Service at the end of FY 1996 and FY 1995 is presented in the
Notes to the Principal Statements, rather than within the Principal Statements, because
the Federal Government does not have title to the property. Statement of Federal Financial
Accounting Standards Number 3, Accounting for Inventory and Related Property, mandates
this method of presentation, in order to avoid overstating the entity's assets and
liabilities, while providing needed accountability over seized assets.
The Future
The Department has made significant progress in implementing the Attorney General's
call to reinvigorate the forfeiture program. The Criminal Division assessed the concerns
of the Department components, and in February 1996, provided program reinvigoration
recommendations to the Attorney General and Deputy Attorney General. Several subsequent
initiatives were undertaken, including 1) the Attorney General's provision of
reinvigoration guidelines to the investigative agencies and U.S. Attorneys, 2) the
initiative to leverage forfeiture as a tool against the drug-smuggling activity along the
Southwest border, and 3) training seminars for federal criminal prosecutors and agents to
enhance the expertise needed to pursue forfeitures successfully.
The Asset Forfeiture Program has matured in recent years. Criminals continue to pay
more attention to the risk of forfeiture and are becoming more sophisticated at hiding
their assets, both here and abroad. Finding and seizing their wealth presents new
challenges. The increased emphasis on criminal forfeiture means greater numbers of
attorneys are involved in forfeiture. However, criminal forfeiture often is a new field
for these prosecutors. Continuing education is essential. Also, new program areas are
receiving emphasis, e.g., violent crime. Without increased staff, law enforcement agencies
simply will not have the resources to identify, seize, and forfeit the proceeds and
instrumentalities of crime at the same rate.
Effort continues toward the seizure and forfeiture of assets in financial institution
and other fraud cases. Since these cases are characterized by low value compared to the
numerous victims, assets forfeited in these cases will be turned over to the defrauded
institutions, to other victims or to the regulatory trust fund. This will result in less
net income to the AFF for the same volume of forfeiture activity.
Summary
FY 1996 was another active year for the Asset Forfeiture Program. In general, program
goals and objectives were met. The $348.2 million revenue recorded during FY 1996 provided
funds and equipment for important law enforcement needs.
The inventory of seized and forfeited property under the control of the U.S. Marshals
Service decreased by 25.6 percent from inventory levels at the end of FY 1995. The asset
value in real-estate as a percentage of total noncash inventory decreased by 6.4 percent
from FY 1995 to FY 1996, and at the end of FY 1996 real estate asset value represented
55.2 percent of the total noncash asset value, down from 61.6 percent at the end of FY
1995. Adverse court decisions, especially as to the issue of double jeopardy, may be one
of the reasons for the decline in forfeiture program activity. Agents and prosecutors
often decided to forego administrative or civil forfeiture actions in order to avoid the
risk of having a criminal prosecution barred on double jeopardy grounds. The circuits'
adverse rulings on the double jeopardy issue were reversed by the Supreme Court in June
1996, when it decided United States v. Ursery, and United States v. $405,089.23,
and held that civil forfeitures under 21 U.S.C. sec. 881(a)(6) and (7) and 18 U.S.C. sec.
981(a)(1)(A), like civil forfeitures generally, do not constitute punishment for purposes
of the Double Jeopardy Clause.
Law enforcement emphasis on local gang activity and a deemphasis on larger drug
organizations has also resulted in smaller amounts forfeited per case, and fewer
forfeitures. To the extent that this program approach continues and staffing of law
enforcement bureaus and litigating components remains stable, it appears that the
Department's forfeiture program may stabilize at a much lower level than that experienced
up through FY 1995, which was about $500 million per year.
Limitations of the Financial Statements
The financial statements have been prepared to report the financial position and
results of operations of the Asset Forfeiture Program, pursuant to 28 U.S.C. § 524(c),
which is consistent with the requirements of the Government Management Reform Act of 1994.
While the statements have been prepared from the books and records of the Asset
Forfeiture Program in accordance with the formats prescribed by OMB, the statements have
minor differences from the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.
The statements should be read with the realization that they are for a sovereign
entity, and that the payment of all liabilities can be abrogated by the Asset Forfeiture
Program. Should unfunded liabilities arise, the cost of which may be met by the permanent,
indefinite portion of the fund, these liabilities may be met without further appropriation
action.
1 The words "without fiscal year limitation,"
establish an appropriation as permanent or available continuously, pursuant to 31 U.S.C.
§ 1301(c)(2) (An appropriation ... may be construed to be permanent or available
continuously ... if the appropriation expressly provides that it is available after the
fiscal year covered by the law in which it appears.)
2 Public Law 104-134 dated April 26, 1996, includes language
that extends Super Surplus authority to excess balances at the end of FY 1995.
3 Note 4 to the Financial Statements reflects data collection
from 25 CATS districts. Seven districts became fully operational late in FY 1996; thus,
the USMS retrieved financial information about these seven districts from SAMS, rather
than CATS.
4 Actual interest earnings totaled $42.7 million for 1996.
Offset against these earnings was a refund of over $28.7 million in prior year interest
earnings distributed pursuant to the Attorney General's authority to disburse amounts
residing in the "U.S. Fund" ($27.4 million) and earnings distributed as a result
of an adverse decision in the UBAF Bank Ltd. case ($1.3 million).
#####